No. 20-569
IN THE SUPREME COURT
OF THE UNITED STATES
ELIM ROMANIAN PENTECOSTAL CHURCH,
and LOGOS BAPTIST MINISTRIEES
Petitioners
v.
JAY ROBERT PRITZKER, in his official capacity as Governor of the State of Illinois
Respondent
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit
MOTION FOR LEAVE TO EXCEED WORD LIMIT IN
REPLY IN SUPPORT OF PETITION FOR WRIT OF CERTIORARI
Mathew D. Staver (Counsel of Record)
Anita L. Staver
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32854
Phone: (407) 875-1776
court@LC.org
Counsel for Petitioners

1

To The Honorable Brett M. Kavanaugh, Associate Justice of the United
States Supreme Court and Circuit Justice for the Seventh Circuit
Pursuant to Rules 33(d) and 22, Petitioners, Elim Romanian Pentecostal
Church and Logos Baptist Ministries (“Petitioners”) hereby move this Court for leave
to exceed the word limit in their Reply in Support of Petition for a Writ of Certiorari
by 1,200 words. In support thereof, Petitioners show unto the Court as follows:
1.

Appellants filed their Petition for a Writ of Certiorari on October 30,

2.

Since the filing of that Petition, this Court has granted numerous

2020.

application for writs of injunction dealing with identical and substantially similar
restrictions on the rights of Churches to gather for religious worship services. See,
e.g., Roman Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63 (2020); South Bay
United Pentecostal Church v. Newsom, 141 S. Ct. 716 (2021); and Harvest Rock
Church v. Newsom, No. 20A137, 2021 WL 406257 (U.S. Feb. 5, 2021). Those decisions
represented a “seismic shift in Free Exercise law” during the COVID-19 era, Calvary
Chapel Dayton Valley v. Sisolak, 982 F.3d 1228, 1232 (9th Cir. 2020), and have
substantially changed the nature in which this Court evaluates challenges identical
to those raised in Petitioners’ Petition for a Writ of Certiorari.
3.

Not only has this Court issued a substantial shift in the jurisprudence

at issue here, but the Court has issued numerous other orders in similar challenges
vacating orders issued by lower courts that do not comply with Roman Catholic
Diocese, 141 S. Ct. 63. See, e.g., Harvest Rock Church v. Newsom, No. 20A94, 2020
WL 7061630 (U.S. Dec. 3, 2020) (granting a petition for certiorari before judgment,
2

vacating the district court and Ninth Circuit’s denials of injunctive relief, and
remanding for consideration in light of Catholic Diocese); High Plains Harvest Church
v. Polis, 141 S. Ct. 527 (2020) (same); Robinson v. Murphy, No. 20A95, 2020 WL
7346601 (U.S. Dec. 15, 2020) (same); Gish v. Newsom, No. 20A120, 2021 WL 422669
(U.S. Feb. 8, 2021) (same).
4.

Because of the number of decisions this Court has granted during the

period since Petitioners first filed the instant Petition in October 30, 2020, the conflict
among the lower courts has continued. Compare Agudath Israel of Am. v. Cuomo, 983
F.3d 620 (2d Cir. 2020) (enjoining New York’s discriminatory restrictions on religious
gatherings to 10 or 25 people); Calvary Chapel Dayton Valley v. Sisolak, 982 F.3d
1228 (9th Cir. 2020) (enjoining Nevada’s 50-person numerical caps imposed only on
religious gatherings); Calvary Chapel Lone Mountain v. Sisolak, 831 F. App’x 317
(9th Cir. 2020) (same); Harvest Rock Church v. Newsom, 985 F.3d 771 (9th Cir. 2021)
(enjoining California’s 100 and 200-person numerical caps on religious gatherings not
imposed on nonreligious gatherings of like kind); South Bay United Pentecostal
Church v. Newsom, 985 F.3d 1128 (9th Cir. 2021) (same), with (App. 001a-012a
(upholding the constitutionality of discriminatory restrictions on religious worship
services of 10 people); Calvary Chapel of Bangor v. Mills, 984 F.3d 21 (1st Cir. 2020)
(declining to enjoin discriminatory restrictions on religious worship services of 50
people, even after Catholic Diocese); South Bay United Pentecostal Church v.
Newsom, 985 F.3d 1128 (9th Cir. 2021) (refusing to enjoin California’s total
prohibition on religious worship services of any number even after Catholic Diocese);

3

Harvest Rock Church v. Newsom, 985 F.3d 771 (9th Cir. 2021) (same); Harvest Rock
Chuch v. Newsom, No. EDCV 20-6414-JGB(KKx), 2020 WL 7639584 (C.D. Cal. Dec.
21, 2020) (refusing to enjoin California’s total prohibition on religious worship
services even after Catholic Diocese and this Court’s GVR Order in the same case);
South Bay United Pentecostal Church v. Newsom, No. 20-cv-865-BAS-AHG, 2020 WL
7488974 (S.D. Cal. Dec. 21, 2020) (same).
5.

The conflict between the lower court’s decision at issue here, this Court’s

recent precedents concerning virtually identical issues, and the vast conflict among
the circuit courts has necessitated further explanation than is typical for a Reply in
Support of a Petition for a Writ of Certiorari. Indeed, rarely does the landscape
change in such a dramatic fashion while a Petition is pending though not fully briefed.
6.

Petitioners are mindful of the Court’s time and resources and are

working diligently to present the Court with the full presentation of the issues and
the conflicts below in the most concise manner possible. Despite best efforts,
Petitioners respectfully submit that an extension of the word limit by 1,500 words
would facilitate a full and complete presentation of the issues for this Court while
still respecting the interests of judicial economy.
7.

No party will be prejudiced by the granting of the relief requested

herein, and this Motion is not brought for purposes of undue delay.
8.

Counsel are mindful of Rule 33(d)’s admonition that ordinarily a motion

requested to exceed the word limit should be filed at least 15 days prior to the
deadline for the filing. However, because Rule 16 provides only 14 days in which to

4

submit a Reply, Petitioners respectfully submit that compliance with the ordinary
rule is not possible in the instant circumstances.
9.

Prior to the filing of the instant Motion, Petitioners consulted with

counsel for Respondent, who indicated that the relief requested herein is opposed.
WHEREFORE, for good cause shown, Petitioners respectfully request that this
Court grant leave to exceed the word limit in their Reply in Support of the Petition
for Writ of Certiorari by 1,200 words.
Respectfully submitted,
Mathew D. Staver (Counsel of Record)
Anita L. Staver
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32854
(407) 875-1776
court@LC.org
Counsel for Petitioners

5

